FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF VIRGINIA
1630 KING STREET. SUITE 500
ALEXANDRIA, VIRGINIA 22314
TEL: (703) 600-0800
FAX: (703) 600-0880

Geremy C. Kamens Ms. Frances H. Pratt

Federal Public Defender Assistant Federal Public Defender
Direct Dial: (703) 600-0815
Email: Fran_Pratt@fd.org

April 30, 2021

Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street NE

Washington, DC 20543

Re: — United States v. Justin Eugene Taylor, 8. Ct. No. 20-1459
Dear Mr. Harris:

I write on behalf of respondent to request an extension of time of four days under Rule 30.4
to respond to the petition for a writ of certiorari in United States v. Justin Eugene Taylor, No.
20-1459. Our brief in opposition is currently due on May 17; an extension of four days would
make it due on May 21. The Office of the Solicitor General consented to this request by email on
April 29.

Undersigned counsel is collaborating on this case with pro bono counsel Michael R.
Dreeben and Kendall Turner, of O’Melveny & Myers, LLP. We request this extension because of
challenges stemming from the ongoing COVID-19 pandemic. The pandemic has complicated our
ability to communicate with our client, who is in prison. It has also yielded many competing
deadlines as courts begin to schedule long-delayed proceedings.

In the next two weeks, undersigned counsel has due on May 3 the opening brief in United
States v. Thomas, No. 20-6234 (4th. Cir.); on May 13, the reply brief in United States v. Sanjurjo,
No. 20-7845 (4th Cir.); on May 17, the reply brief in United States v. Davis, No. 20-4535 (4th
Cir.); and two First Step Act § 404 motions in district court cases.

Mr. Dreeben’s and Ms. Turner’s other deadlines and commitments include a merits-stage
amicus brief due May 10 in Wooden v. United States, No. 20-5279 (U.S.); a merits brief due June
22 in Hemphill v. United States, No. 20-637 (U.S.); and several depositions and briefing deadlines
in SmileDirectClub, Inc. v. NBCUniversal Media, LLC, No. 20-C-1054 (Tenn. Cir. Ct), and
Gottwald v. Sebert, No. 653118/2014 (N.Y. Sup. Ct.).

Given these overlapping demands, we will not be able to communicate adequately with our
client and prepare a brief in opposition without the requested extension.
Hon. Scott S. Harris
April 30, 2021
Page 2 of 2

cc:

Thank you for your understanding and your attention to this request.

Sincerely,
ae Hi
Nwoureta ye

Frances H. Pratt

Edwin S. Kneedler
Deputy Solicitor General

Counsel of Record for Petitioner
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2203 (main)
(202) 514-2217 (case management)
SupremeCtBriefs@usdoj.gov
